              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections




Inspection Report

Concerns Related to the Office of
International Material Protection and
Emergency Cooperation




DOE/IG-0593                             April 2003
INSPECTION OF CONCERNS RELATED TO THE OFFICE OF
INTERNATIONAL MATERIAL PROTECTION AND
EMERGENCY COOPERATION

TABLE OF
CONTENTS


              OVERVIEW

              Introduction and Objective            1

              Conclusions and Observations          1


              DETAILS OF FINDINGS                   2

              Board of Visitors Establishment       2

              Payments for Board of Visitors        2

              Moscow Sublease                       3

              Procurement Requirements ……………………………… 4

              RECOMMENDATIONS                       5

              MANAGEMENT COMMENTS                   5

              INSPECTOR COMMENTS                    5

              APPENDIX

              A. Scope and Methodology              6

              B. Management Comments …………………………….. 7
Overview

INTRODUCTION                         The Office of Inspector General (OIG) received allegations
AND OBJECTIVE                        regarding the Material Protection, Control and Accounting
                                     Program managed by the Office of International Material
                                     Protection and Emergency Cooperation (IMPEC), National
                                     Nuclear Security Administration (NNSA), Department of Energy
                                     (DOE). The allegations centered on:

                                     •    the creation of an advisory committee, the Board of Visitors1,
                                          in possible violation of the Federal Advisory Committee Act
                                          (FACA), and

                                     •    the inappropriate handling of payments from an unauthorized
                                          sublease for office space to support the Material Protection,
                                          Control and Accounting Program in Moscow, Russia.

                                     The objectives of our inspection were to determine if: (1) the Board
                                     of Visitors advisory committee was established in conformance with
                                     FACA requirements, and (2) payments for a sublease for office
                                     space in Moscow were appropriately handled.

CONCLUSIONS AND                      We concluded that the Board of Visitors was not established
OBSERVATIONS                         in conformance with FACA requirements. We found that IMPEC
                                     officials did not adhere to advice from the DOE Office of General
                                     Counsel when establishing the Board of Visitors, nor did they
                                     obtain required approval to provide compensation to Board of
                                     Visitors members. We also concluded that the matter of payments
                                     from the unauthorized sublease of office space in Moscow was
                                     appropriately resolved. We found that a DOE contractor recouped
                                     payments from a subcontractor that had leased the office space for
                                     DOE and then subleased some of the office space to other entities.
                                     The subcontractor had improperly kept the payments resulting
                                     from these subleases.

                                     We further found that DOE contractor officials did not adhere to
                                     contractor procurement policies and procedures when contracting
                                     with the Potomac Foundation to provide support for the Board of
                                     Visitors and when contracting for the primary lease for the office
                                     space in Moscow.

                                     We are reviewing additional procurement issues in a follow-on
                                     inspection, which will be the subject of a separate report.


1
    The Board of Visitors was comprised of senior figures from the political, business, legal, and investment banking
    communities, and provided non-binding advice and assistance to IMPEC on the Material Protection, Control and
    Accounting Program with the Russian Federation. It met once formally in December 2000.

Page 1                                                           Inspection of Concerns Related to
                                                                 the Office of International Material
                                                                 Protection and Emergency Cooperation
Details of Findings
                      In 1972, Congress enacted FACA to address the proliferation and
                      lack of effective management of Government advisory committees.
                      For the purpose of FACA, the term “advisory committee” means
                      any group established or utilized by an agency in the interest of
                      obtaining advice or recommendations. The intent of FACA is to
                      ensure that:

                      •   valid needs exist for establishing and continuing advisory
                          committees;

                      •   advisory committees are properly managed and their proceedings
                          are open to the public; and

                      •   Congress is kept informed of advisory committee activities.

BOARD OF VISITORS     We determined that the Board of Visitors was not established in
ESTABLISHMENT         conformance with FACA requirements. IMPEC officials
                      established the Board of Visitors as a non-Department group to
                      advise on IMPEC’s non-proliferation mission. On November 15,
                      2000, Wackenhut Services, Inc. (WSI), which operates DOE’s
                      Nonproliferation National Security Institute in Albuquerque, New
                      Mexico, awarded a contract at the direction of IMPEC officials to
                      the Potomac Foundation to provide support to the Board of
                      Visitors. The Potomac Foundation is a non-profit, private
                      operating foundation that conducts policy analysis relating to
                      international security/economic issues and domestic political
                      developments. Support included dissemination of materials to
                      Board of Visitors members and providing summaries of Board
                      member discussions.

                      We learned that the Office of General Counsel advised IMPEC
                      officials that the Board of Visitors could be established and would
                      be in conformance with FACA requirements, only if the Board of
                      Visitors was a subcommittee to the Secretary of Energy Advisory
                      Board (SEAB), or otherwise “registered” pursuant to FACA. The
                      SEAB is the highest-level external advisory board in DOE and
                      provides advice on issues of importance to the Secretary, including
                      national security policy. We determined that the Board of Visitors
                      was not established as a SEAB subcommittee, nor was it
                      “registered” pursuant to FACA. Registration includes filing an
                      advisory committee charter and publishing notice in the Federal
                      Register.

PAYMENTS FOR          We determined that the required approval was not obtained by
BOARD OF VISITORS     IMPEC officials to provide funds to the Potomac Foundation for
                      compensation to the Board of Visitors. DOE M 510.1-1, “Advisory

Page 2                                                              Details of Findings
                  Committee Management Program,” dated September 30, 1996,
                  allows for compensation of advisory committee members only when
                  “directed by law” or approved by the Secretary. The Potomac
                  Foundation had a fixed-price contract for the Board of Visitors and
                  was paid for the meetings regardless of whether all members
                  attended. We learned that WSI, on behalf of IMPEC, paid invoices
                  submitted by the Potomac Foundation for two meetings of the Board
                  of Visitors held in December 2000 and April 2001. The invoices
                  totaled $36,500 for each meeting, including $16,500 per meeting to
                  compensate the members of the Board of Visitors. A senior IMPEC
                  official advised us that compensation for Board members had not
                  been approved by the Secretary or “directed by law.”

                  Based on available documentation, we were unable to determine if
                  the Potomac Foundation actually compensated the entire
                  membership of the Board of Visitors or only the meeting attendees.
                  A WSI official responsible for managing the Potomac Foundation
                  contract was unable to locate much of the documentation regarding
                  the contract.

                  We determined that the Potomac Foundation received full payment
                  for two meetings of the Board of Visitors, including compensation
                  for the entire Board of Visitors even though all Board members did
                  not attend the meetings. We learned from the records provided by
                  IMPEC that at least three members did not attend the December
                  2000 meeting. Regarding the April 2001 meeting, a senior IMPEC
                  official advised that there was not an actual meeting of the Board of
                  Visitors because he only conversed with one member.

MOSCOW SUBLEASE   We determined that WSI officials recouped payments from a
                  subcontractor that had leased office space in Moscow for DOE and
                  then subleased some of the space to other entities without DOE
                  permission. The subcontractor had improperly kept the payments
                  resulting from these subleases.

                  In 1999, WSI leased office space in Moscow through a subcontractor
                  on behalf of the Material Protection, Control and Accounting
                  Program. The subcontractor subsequently subleased part of the
                  excess office space to other entities. Instead of providing the funds
                  from the sublease payments to WSI and having the monies properly
                  credited, the subcontractor kept the payments. In December 1999,
                  WSI learned of the subleasing arrangement and took action to
                  remedy the matter. WSI modified its contract with the subcontractor
                  and recouped $14,000, the entire amount of the sublease payments.




Page 3                                                           Details of Findings
PROCUREMENT    We found that WSI officials did not adhere to WSI policies and
REQUIREMENTS   procedures when awarding sole source contracts to the Potomac
               Foundation to provide support for the Board of Visitors and to a
               specified subcontractor to lease office space for DOE in Moscow. A
               sole source justification was not prepared for either award as
               required by the WSI Purchasing Manual, Chapter III, under
               Competition, “d. Sole Source Justification.”

               In addition, IMPEC officials and an IMPEC support contractor
               assisted the Potomac Foundation in the preparation of its
               unsolicited proposal for the Board of Visitors contract. The
               assistance included reviewing draft proposals and providing
               recommended changes. DOE Order 542.2, “Unsolicited
               Proposals,” states that discussions with a prospective submitter
               prior to submission of a proposal will be limited to a discussion of
               the DOE mission and needs relative to the type of work
               contemplated. According to DOE’s procurement office, the
               assistance provided by IMPEC officials and the support contractor
               was not in compliance with the DOE Order.

               Also, WSI officials could not provide documentation that described the
               need to lease office space in Moscow, the general requirements of the
               lease, and the lease cost. According to Department of Energy
               Acquisition Regulations (DEAR), Subpart 917.74 “Acquisition, Use,
               and Disposal of Real Estate,” it is DOE’s policy that leases will be
               justified with such documentation.

               We discussed these procurement-related actions with IMPEC and WSI
               officials. None of the officials believed they were accountable for these
               actions. IMPEC officials insisted that WSI officials were responsible for
               ensuring the subcontract with the Potomac Foundation and the
               subcontract associated with the Moscow office space lease were in
               accordance with procurement policies, while WSI officials said that
               IMPEC officials had directed them to take the actions.




Page 4                                                        Details of Findings
Recommendations

RECOMMENDATIONS   We recommend that the Deputy Administrator for Defense Nuclear
                  Nonproliferation:

                  1. Review the facts and circumstances surrounding the creation of
                     the Board of Visitors advisory committee and take appropriate
                     corrective actions; and, strengthen internal controls to ensure that
                     proper advisory board approvals are obtained in the future.

                  2. Determine if existing advisory committees established by the
                     Office of Defense Nuclear Nonproliferation are in conformance
                     with FACA requirements.

                  3. Determine if the amount of funds paid to the Potomac
                     Foundation for Board of Visitors’ meetings was warranted and, if
                     not, take action to recoup funds as appropriate.

                  4. Ensure that IMPEC officials are knowledgeable of procurement
                     requirements and adhere to these requirements in future
                     procurements.

MANAGEMENT        In comments dated February 13, 2003, management agreed with
COMMENTS          our conclusions and recommendations. Management advised that
                  a special fact finder had been tasked to look into other internal
                  control issues related to this program and that with the publication
                  of our draft report, management had expanded the scope of his
                  review. Management also advised that at the completion of the
                  fact finder’s report, management would develop and implement the
                  appropriate policies and corrective actions. Management’s
                  verbatim comments are in Appendix B.

INSPECTOR         We consider management’s comments and actions to be generally
COMMENTS          responsive to our recommendations and the issues addressed in our
                  report.




Page 5                                                    Recommendations
                                         Management and Inspector Comments
Appendix A
SCOPE AND     Our review was conducted during the period December 2001 to
METHODOLOGY   April 2002. As part of our review, we interviewed Department of
              Energy (DOE) Headquarters officials in the Office of Defense
              Nonproliferation, National Nuclear Security Administration; the
              Office of Management, Budget and Evaluation; and the Office of
              General Counsel. We also interviewed DOE and DOE contractor
              officials at the Nonproliferation and National Security Institute, the
              Albuquerque Operations Office, and Brookhaven National
              Laboratory, as well as an official of the Potomac Foundation.

              We collected, reviewed, and analyzed documentation on
              procurement and advisory committees/boards including:

              •   DOE Order 221.1, “Reporting Fraud, Waste, and Abuse to the
                  Office of Inspector General,” dated March 22, 2001.

              •   DOE Manual 510.1-1, “Advisory Committee Management
                  Program,” dated September 30, 1996.

              •   General Accounting Office (GAO) Testimony No. GAO/T-
                  GGD-98-24, “Federal Advisory Committee Act: Overview of
                  Advisory Committees Since 1993,” dated November 5, 1997.

              •   Federal Advisory Committee Act, 1972.

              •   GAO Report No. GAO-01-823 “Department of Energy: Status
                  of Achieving Key Outcomes and Addressing Major
                  Management Challenges."

              We also reviewed the contract file for the Moscow office lease and
              documents regarding the contract for the Board of Visitors.

              The inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 6                                                 Scope and Methodology
Appendix B




Page 7       Management Comments
                                                                    IG Report No. DOE/IG-0593

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
